SEC.gov |  Program Officials' Information Security Responsibilities
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Program Officials' Information Security Responsibilities
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 24
September 10, 2002
To: Division Directors and Office Heads 1
From:  Walter Stachnik, Inspector General
Re:  Program Officials' Information Security Responsibilities
Since passage of the Government Information Security Reform Act (GISRA) on October 30, 2000, the Commission's Chief Information Officer (CIO) has taken action to implement a Commission-wide Security Program to comply with the spirit and intent of GISRA.  For example, the Commission's CIO has taken action to:
Educate the Chairman, program offices and Commission staff on their information security responsibilities;
Integrate information security into the Commission's Information Technology Capital Planning (ITCPC) Process;
Publish Commission-wide policies and procedures for certifying and accrediting Commission systems and applications; and,
Establish a standardized contracting vehicle to assist program offices in certifying and accrediting Commission systems and applications.
However, the Commission's Information Security Program is not in full compliance with the GISRA.  Specifically, Division Directors and Office Heads have not yet been adequately integrated into the Program.  GISRA requires that Division Directors and Office Heads:
Assess the risk to information processed by the systems supporting their mission areas;
Determine the appropriate level of security to protect information processed by their systems;
Maintain up-to-date information system security plans, and
Ensure that information system security controls are tested and evaluated.
Although GISRA does not permit OIT to perform these duties, OIT has developed regulations for system certification and accreditation and has procured a contractor to help divisions and offices comply with GISRA.  The OIT Security Group has more information.
We are recommending the following actions to help the Commission achieve compliance with the mandates of GISRA.
Recommendation A
The Office of Information Technology (OIT) should establish and publish Commission-wide definitions of what constitutes a "Major Application" and what constitutes a "General Support System".
Recommendation B
Within 30 days, the Chairman or Executive Director should formally assign system security responsibilities (e.g., to certify the security of applications/systems) to division directors and office heads, as specified in GISRA.
Recommendation C
Upon notification, each division director and office head (see Attachment A) should explicitly assign the responsibility to complete mandated system security tasks (see Attachment B) to their Information Officer.  If the division or office does not have an Information Officer, these duties should be assigned to a senior manager having knowledge of the program and some knowledge of the office's use of information technology (IT) in conducting Commission operations.  These assignments should be completed and provided to the CIO within 5 days of being notified by the Chairman or Executive Director.
Recommendation D
Within 30-days of assignment, each Information Officer should prioritize the certification and accreditation sequence of the applications and systems for their division or office, and provide the list to the Information Officers Council (IOC) and CIO.  For those divisions and offices not having an Information Officer, the senior manager assigned this responsibility should prioritize the certification and accreditation sequence, and provide the list to the IOC and CIO.
In implementing this recommendation, Information Officers and senior managers should meet with the CIO and IOC to establish agreement on which program office is assigned principal ownership of the Commission's application/system.  Once application/system ownership responsibilities are
assigned to non-OIT program offices, the IOC and ITCPC should use this baseline to implement Recommendations E, F, and G below.
Recommendation E
The IOC, in coordination with the CIO, should prioritize the portfolio of Commission applications and systems submitted by the Information Officers that require certification and accreditation.  All major applications and systems should be certified and accredited within 15 months of the publication date of this audit report.
Recommendation F
The CIO should prioritize and schedule general support systems for certification and accreditation within 12 months of the publication date of this audit report.
Recommendation G
The ITCPC should ensure that appropriate funds are programmed annually to certify and accredit applications and systems on a recurring basis, in compliance with GISRA.
ATTACHMENT A
DIVISION DIRECTORS AND OFFICE HEADS
ES*  Mark Radke
OS  Jonathan Katz
ED  James McConnell
GC  Giovanni Preziosio
CF  Alan Beller
ENF  Stephen Cutler
ENF**  James Clarkson
IM  Paul Roye
MR  Annette Nazareth
ALJ  Brenda Murray
OAPM  Jayne Seidman
CA  Robert Herdman
OCOM  Brian Gross
OPA  Christi Harlan
OLA  Jayne Cobb
OIEA  Susan Ferris-Wyderko
OCIE  Lori Richards
OEA  Lawrence Harris
EEO  Deborah Balducchi
OFIS  Kenneth Fogash
OFM  Margaret Carpenter
OIT  Michael Bartell
OIG  Walter Stachnik
OIA  Felice Friedman
*  Executive Staff representing the Commissioners.
** Director responsible for regional and district operations.
ATTACHMENT B
SYSTEM SECURITY MANDATES THAT ARE THE RESPONSIBILITY OF COMMISSION DIVISION DIRECTORS AND OFFICE HEADS
Public Law (P.L. 106-398) including Title X, Subtitle G, "Government Information Security Reform (The Security Act)," amends the Paperwork Reduction Act of 1995 (44 U.S.C. Chapter 35) by enacting a new subchapter on Information Security.  The new subchapter primarily addresses the program management and evaluation aspects of information security.  The Security Act essentially codifies the existing requirements of OMB Circular A-130, Appendix III, "Security of Federal Automated Resources."  The Security Act applies to all Executive agencies and pertains to all "program area" systems, including those systems currently in place, or planned.
Ensuring the security of information systems is no longer the sole responsibility of the Commission's Chief Information Officer, or Office of Information Technology.  The Public Law establishes clear roles and responsibilities for the Chairman, Chief Information Officer, and Division Directors and Office Heads.  Accordingly, Division Directors and Office Heads are ultimately responsible for the security of their program areas, including the assessment of the security of the information technology applications used by their program area to accomplish the Commission's regulatory responsibilities.  Specific information security responsibilities of Commission program offices include:
Assessing the risk to information processed by the systems supporting your program area;
Determining the appropriate level of security to protect the information processed by the systems supporting your program area;
Establishing and updating information systems security plans for your program area; and
Ensuring that information security controls for the systems used in your core day-to-day operations are routinely tested and evaluated.
The Commission's CIO has established a contracting vehicle to ensure that each division and office consistently implements its information security responsibilities.  In addition, the Office of the Executive Director has approved a regulation that outlines the process and procedures for certifying and accrediting Commission systems.  Both tools should be used to assess the security of the information systems and applications that support specific program area responsibilities.
1  See Attachment A
http://www.sec.gov/about/oig/audit/audmemo24final.htm
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us